OIG Investigative Reports, Woman Sentenced To Almost Five Years in Federal Prison for Student Loan Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
For Immediate Release
Las Vegas, February 24, 2006
U.S. Department of Justice
United States Attorney
District of Nevada
333 Las Vegas Boulevard South, Suite 5000
Las Vegas, NV 89101
PRESS CONTACTS:
Natalie Collins, Public Affairs Specialist
(702) 388-6508
WOMAN SENTENCED TO ALMOST FIVE YEARS IN FEDERAL PRISON FOR STUDENT LOAN FRAUD
LAS VEGAS - A woman charged in June 2004 along with her four children and three grandchildren with defrauding the U.S. Department of Education of almost $1 million in student loans and grants by using dozens of fraudulent identifications, was sentenced today in U.S. District Court to almost five years in prison, announced Daniel G. Bogden, United States Attorney for the District of Nevada.
ANN ARMSTRONG, age 63, of Las Vegas, Nevada, was sentenced by U.S. District Judge Lloyd D. George to 57 months in prison, 3 years of supervised release, and ordered to pay $662,081 in restitution. She pleaded guilty on October 19, 2005, to one count of conspiracy to commit student loan fraud and one count of student loan fraud.
“The government will continue to aggressively pursue cases of student loan fraud,”said U.S. Attorney Bogden. “When individuals fraudulently and illegally receive federal student aid grants and loans, less money is available for deserving students. In this case, Ann Armstrong and her family engaged in an extensive fraud involving institutions in several states, dozens of purported students and almost $1 million in federal student loans and grants.”
ANN ARMSTRONG admitted in her guilty plea memorandum that she conspired with her children, Yasmin Armstrong, Anthony Armstrong, Michelle Armstrong, and Royale Armstrong, and grandchildren Michael Armstrong, Jason Jones and Justin Jones, to commit financial aid fraud. The object of the conspiracy was to fraudulently obtain federal student financial aid (grants and loans) through the use of false applications which were submitted by fax and e-mail. Financial aid checks were received through the mail and the funds obtained through the use of false identification documents. Many of the students were unaware that their names were being used to obtain the financial aid.
Using this scheme, the defendants fraudulently obtained almost $1 million in federal student loans and grants. The actual loss to the Department of Education from the fraudulent scheme is estimated at more than $600,000.
ANN ARMSTRONG received an enhanced sentence because she was a leader or organizer of the fraud and it involved five or more participants or was otherwise extensive. She prepared the financial aid applications and directed the activities of the other defendants. She also received most of the proceeds of the fraud and determined how much of the proceeds would be dispersed to the other defendants.
Four of the other seven Armstrong family members charged in this case, Royale Armstrong, Michelle Armstrong, Anthony Armstrong and Yasmin Armstrong, pleaded guilty to conspiracy to commit student loan fraud and were sentenced to prison terms. Another family member, Michael Armstrong, also pleaded guilty to conspiracy to commit student loan fraud and is scheduled for sentencing on March 24, 2006, and faces up to five years in prison. Justin Jones pleaded guilty to misdemeanor student loan theft and was sentenced to five years of probation.
Jason Jones is presently in prison on unrelated state charges and has not yet appeared in this case. The fraudulent scheme was initially reported to the U.S. Department of Education Office of Inspector General by a financial aid officer at Truckee Meadows Community College in Reno.
The financial aid officer observed that a number of students were applying for financial aid using the same addresses and telephone numbers. An investigation was initiated, ultimately leading to the filing of a criminal complaint and issuance of arrest warrants against the defendants.
"Special Agents aggressively pursue those who seek to enrich themselves at the expense of our nation’s students,” said Department of Education Inspector General John P. Higgins, Jr. “We continue to work with others in law enforcement to prevent identity theft and to safeguard federal education dollars.”
This case is being investigated by Special Agents with the Department of Education Office of the Inspector General, and is being prosecuted by Assistant United States Attorney Russell E. Marsh.
Top
Printable view
Share this page
Last Modified: 03/17/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov